No. 20-______
In The
Supreme Court of the United States

KATHY CONTRERAS, on behalf of her minor child A.L.,
Petitioner,
v.
DOÑA ANA COUNTY BOARD OF COUNTY COMMISSIONERS,
doing business as DOÑA ANA COUNTY DETENTION CENTER;
PACO LUNA; JAIME CASADO; and SHAYLENE PLATERO,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
PETITION FOR A WRIT OF CERTIORARI
Katherine Wray
WRAY LAW PC
Granite Ave. NW
Albuquerque, NM 87102
(505) 842-8492
wray@kwraylaw.com

Margaret Strickland
MCGRAW & STRICKLAND
Counsel of Record102
165 W. Lucero Ave.
Las Cruces, NM 88005
(575) 523-4321
margaret@lawfirmnm.com

Counsel for Petitioner

ii
QUESTIONS PRESENTED
Respondents, Doña Ana County Detention Center and three detention officers,
regularly failed to secure access to a control panel that locked the inmates’ cell doors.
Instead of monitoring an inmate who had loudly threatened Petitioner, the three
detention officers watched television while the inmate accessed the unsecured and
opened cell doors so that other inmates could brutally attack the 14-year-old
Petitioner. This was the fourth such attack in an 18-month period.
In three separate opinions, the Tenth Circuit panel affirmed dismissal of both
the individual jailer claims and the Monell claims against the jail because the law
was not “clearly established.” No one circuit judge took the same approach as the
others or the district court.
The questions presented are:
1. Whether this Court should resolve the confusion in the circuit courts about
what constitutes “clearly established” law with a clear rule and guidance from this
Court that allows a legitimate constitutional claim to proceed under Section 1983
whenever

the circumstances give government actors ample opportunity to

understand how the relevant legal doctrine applies, as the First, Second, Sixth, and
Seventh Circuits have decided, rather than requiring factually identical precedent,
as the Tenth Circuit required in this case?
2. Whether the Tenth Circuit’s decision that the law must be clearly
established to support a Monell claim for deliberate indifference is inconsistent with
the settled law of this Court?

iii
3. Whether Petitioner overcome qualified immunity by showing that the jailers
were deliberately indifferent to Petitioner’s clearly established rights, because the
violation was patently obvious and sufficiently similar prior precedent gave the
jailers fair notice their conduct violated Petitioner’s constitutional rights?

iv
LIST OF PARTIES
The parties to the proceedings below were Petitioner, Kathy Contreras, on
behalf of her minor son, A.L.; and, Respondents Doña Ana County Board of County
Commissioners, doing business as Doña Ana County Detention Center, Paco Luna,
Jaime Casado, and Shaylene Platero.

v
TABLE OF CONTENTS
QUESTION PRESENTED……………………………………………………..ii-iii
PARTIES TO THE PROCEEDINGS BELOW……………………………… iv
TABLE OF AUTHORITIES…………………………………………………… vii-ix
OPINIONS BELOW……………………………………………………………..1
JURISDICTION………………………………………………………………….1
STATUTORY PROVISIONS INVOLVED……………………………………1-2
STATEMENT OF THE CASE………………………………………………….2-6
REASONS FOR GRANTING THE WRIT……………………………………6-27
Summary of Reasons
I.

This Court Should Resolve the Confusion Among
the Circuits About How to Identify Clearly
Established Law when Circumstances Give
Government Actors Opportunity to Determine
How the Relevant Legal Doctrine Applies………………………..8-5

II.

The Monell Analysis Within the Tenth
Circuit’s Split Opinion is Inconsistent with
this Court’s Decisions About Deliberate
Indifference in the Monell Context………………………………..15-24
A. Governmental Entities Must Bear the Risk for
Their Own Constitutional Violations……………………………..16-18
B. The Deliberate Indifference Standard for
Governmental Entities Prevents Respondeat
Superior Liability………………………………………………….…18-23
C. Requiring Clearly Established Law for
Governmental-Entity Liability Undermines
the Development of Constitutional Law……………………………23-24

III.

Petitioner Satisfied the Burden to Show His
Constitutional Rights Were Clearly Established

vi
Because Respondents Had Ample Time to Evaluate
the Circumstances and Make Reasoned Decisions
Based on More General Constitutional Principles ………………24-27
CONCLUSION…………………………………………………………………….27
APPENDIX…………………………………………………………………………1a-97a
APPENDIX A: ORDER, Tenth Circuit Court of Appeals
(September 4, 2020) ………………………………………………………1a
APPENDIX B: OPINION, Tenth Circuit Court of Appeals
(July 20, 2020) …………………………………………………………….2a-59a
APPENDIX C: ORDER of the United States District Court
for the District of New Mexico (November 7, 2018) …………………60a-97a

vii

TABLE OF AUTHORITIES
Cases

Page(s)

A.N. ex rel. Ponder v. Syling, 928 F.3d 1191, 1198-99 (10th Cir. 2019)……..25
Arrington-Bey v. City of Bedford Heights, 858 F.3d 988 (6th Cir. 2017)……..20, 21
Ashcroft v. al-Kidd, 563 U.S. 731 (2011) ……..……..……..……..……….……..9
Becker v. Elfreich, 821 F.3d 920 (7th Cir. 2016)……………………………….. 10
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 561-63, (2007)………………………26
Berry v. Muskogee, 900 F.2d 1489 (10th Cir. 1990)……………………………. 25
Board. of County Comm’rs v. Brown, 520 U.S. 397 (1997)…………………….15, 18-22
Braun v. Maynard, 652 F.3d 557, 560 (4th Cir. 2011)………………………….12
Brooks v. Powell, 800 F.3d 1295 (11th Cir. 2015)……………………………….14
Browder v. City of Albuquerque, 787 F.3d 1076 (10th Cir. 2015)……………. 13
Camreta v. Greene, 563 U.S. 692 (2011)…………………………………………. 24
City of Canton, Ohio v. Harris, 489 U.S. 378 (1989)……………………………15, 18-20
Contreras v. Doña County Board of County Comm’rs,………………………… 1
965 F.3d 1114 (10th Cir. 2020)
District of Columbia v. Wesby, 138 S.Ct. 577 (2018)……………………………8, 12, 24
Erickson v. Holloway, 77 F.3d 1078 (8th Cir. 1996)……………………………26
Farmer v. Brennan, 511 U.S. 825 (1994)…………………………………………24-25
Hagans v. Franklin County Sheriff’s Office,……………………………………..21
695 F.3d 505 (6th Cir. 2012)
Harris v. Klare, 902 F.3d 630 (6th Cir. 2018).…………………………………..10
Hope v. Pelzer, 536 U.S. 730 (2002)………….……………………………………9

viii

Howard v. Waite, 534 F.3d 1227 (10th Cir. 2008)………………………………25
Irish v. Fowler, No. 20-1208, 2020 U.S. App. LEXIS 35054…………………..12, 27
(1st Cir. Nov. 5, 2020)
Jamison v. McClendon, No. 3:16-CV-595,..………………………………………14
2020 U.S. Dist. LEXIS 139327 (S. D. Miss. 2020)
Jones v. Treubig, 963 F.3d 214 (2nd Cir. 2020)…………………………………10
Junior v. Anderson, 724 F.3d 812 (7th Cir. 2013)………………………………26
Kane v. Barger, 902 F.3d 185 (3rd Cir. 2018).………………………..…………14
Kisela v. Hughes, 138 S.Ct. 1148 (2018)………………………………………9, 11, 14
Kelsey v. Ernst, 933 F.3d 975 (8th Cir. 2019)……………………………………13-14
Lowe v. Raemisch, 864 F.3d 1205 (10th Cir. 2017)…………………………….. 10
Marsh v. Butler Cnty., Ala., 268 F.3d 1014 (11th Cir. 2001)…………………..26
Manzanares v. Roosevelt Cty. Adult Det. Ctr.,……………………………………14
331 F.Supp.3d 1260 (D. N.M. 2018)
McCoy v. Alamu, 950 F.3d 226 (5th Cir. 2020……………………………………13-14
Monell v. Dep’t of Social Servs. of N.Y., 436 U.S. 658 (1978)…………………..16-18
Mullenix v. Luna, 136 S.Ct. 305 (2015)…………………………………… 9, 11 21, 24
Newman v. Holmes, 122 F.3d 650 (8th Cir. 1997)………………………………..26
Owen v. Independence, 445 U.S. 622 (1980)………………………………… ..15, 17-22
Pearson v. Callahan, 555 U.S. 223 (2009)…………………………………..7, 15, 23-24
Phillips v. Cmty. Ins. Corp., 678 F.3d 513 (7th Cir. 2012)………………………13-14
Sacramento v. Lewis, 523 U.S. 833, 836, 851-53 (1998)…………………………11
San Francisco v. Sheehan, 135 S.C.t. 1765 (2015)………………………………..9

ix
Saucier v. Katz, 533 U.S. 194 (2001)………………………………………………9
Sims v. Labowitz, 885 F.3d 254 (4th Cir. 2018)…………………………………12
Stamps v. Town of Framingham, 813 F.3d 27 (1st Cir. 2016)………………..10
Street v. Corrs. Corp. of Am., 102 F.3d 810 (6th Cir. 1996)……………………26
Szabla v. City of Brooklyn Park, 486 F.3d 385 (8th Cir. 2007)………………. 20-21
Taylor v. Rojas, 208 L. Ed.2d 164 (2020)…………………………………………11, 13
Taylor v. Stevens, 946 F.3d 211 (5th Cir. 2019)………………………………… 6
Townes v. City of New York, 176 F.3d 138 (2nd Cir. 1999)…………………… 20-21
Walton v. Dawson, 752 F.3d 1109 (8th Cir. 2014)……………………………… 13, 26
White v. Pauly, 137 S.Ct. 548 (2017)………………………………………………8, 21
Zadeh v. Robinson, 928 F.3d 457 (5th Cir. 2019)………………………………. 13
Constitutional Provisions
U.S. Const. amend. XIV..……………………………………………………………1, 3
Statutes
28 U.S.C. § 1254..……………………………………………………………………1
28 U.S.C. § 1331..……………………………………………………………………1
28 U.S.C. § 1334..……………………………………………………………………1
42 U.S.C. § 1983..………………………………………………1-2, 8, 16-18, 23-24
Other Authorities
Joanna C. Schwartz, The Case Against Qualified Immunity,……………….24
93 Notre Dame L. Rev. 1797, 1814-20 (2018)
Karen M. Blum, Qualified Immunity: Time to Change the Message,……....15
93 Notre Dame L. Rev. 1887 (2018)

1
PETITION FOR A WRIT OF CERTIORARI
Kathy Contreras, on behalf of her minor child A.L., respectfully petitions for a
writ of certiorari to review the judgment of the United States Court of Appeals for the
Tenth Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 2a-59a) is reported at 965 F.3d 1114.
The district court’s order (App. 60a-97a) is unreported.
JURISDICTION
The court of appeals entered judgment on July 7, 2020 (App. 2a-59a) and
denied a petition for rehearing on September 4, 2020 (App. 1a). This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(1). The asserted grounds for jurisdiction in
the federal district court were 28 U.S.C. §§ 1331 and 1334.
STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
This case involves the rights under the United States Constitution and 42
U.S.C. Section 1983 of a juvenile detained on a probation violation.
The Fourteenth Amendment to the United States Constitution provides in
relevant part:
No State shall . . . deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
42 U.S.C. § 1983 provides in relevant part:
Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or
other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws,

2
shall be liable to the party injured in an action at law, suit in equity, or
other proper proceeding for redress. . . .
STATEMENT OF THE CASE
The Doña Ana County Detention Center (DACDC) uses a control panel to lock
and unlock cell doors in the juvenile housing unit. (App. 32a). The control panel is in
the day room, a few feet from the commissary kiosk that inmates and detainees use
to purchase items. (App. 32a). If detention officers leave the control panel unlocked,
unsupervised inmates and detainees can access the panel to unlock and open cell
doors, including the doors on the second level of the juvenile area. (App. 32a). On four
occasions in the eighteen months preceding the attack on Petitioner, juvenile inmates
attempted to access the control panel to operate cell doors, and on two of those
occasions, inmates successfully opened doors and attacked other inmates. (App. 35a36a). One of the Respondent officers reported that no one trained him to lock the
panel and customarily, no one locked it. (App. 33a-34a).
Fourteen-year-old Petitioner (“A.L.”) arrived at DACDC as a pretrial detainee
after a curfew violation. (App. 29a). As detention officers escorted him inside, three
inmates loudly threatened to attack him. (App. 30a-31a). DACDC officers knew those
detainees had extensive histories of violence, instability, and disciplinary infractions.
(App. 29a-30a). Because of the threats, DACDC placed the three violent detainees on
“pre-disciplinary” segregation, which restricted the violent inmates to their locked
cells, only to be released one at a time, for specific purposes. (App. 31a). DACDC also
placed Petitioner in his locked cell. (App. 31a, 69a).

3
The next day, three detention officers allowed one of the violent detainees to
take a shower. (App. 31a). After his shower, he returned to the dayroom. (App. 31a).
He requested, and was given, permission to use the commissary kiosk. (App. 32a).
While the violent detainee stood at the commissary kiosk, checking over his shoulder
to see if the officers were watching him, the three officers sat at a dayroom table,
watching television. (App. 31a-33a). The officers paid no attention while the detainee
moved from the commissary kiosk to the closely adjacent, highly visible, and unlocked
control panel kiosk. (App. 31aa-33a). The detainee quickly manipulated the control
panel to open cell doors, including the one in which Petitioner had been secured for
his safety. (App. 32a-33a).
That action allowed the two other violent detainees to reach and attack
Petitioner. (App. 33a). When the officers made it to the cell to stop the beating (using
pepper spray), Petitioner was unconscious, bleeding from his ears. (App. 33a).
Respondents sent Petitioner to the hospital, with a broken jaw, lacerations, and
bruises. (App. 33a).
Petitioner’s mother filed suit under Section 1983 in federal district court
against the Doña Ana County Board of County Commissioners and the three
detention officers. She claimed the officers were deliberately indifferent to the
substantial risk of serious harm to Petitioner and their failure to protect him from
that harm violated the due process clause of the 14th Amendment. Petitioner further
alleged that the County violated the due process clause of the 14th amendment (1) by
deliberate indifference to the risk that failure to properly train the officers to secure

4
the control panel would cause harm to Petitioner; and, (2) by permitting an
unconstitutional custom and practice of failing to secure the control panel.
The district court granted the officers qualified immunity, distinguishing other
cell-door-locking cases, reasoning that the law was not clearly established, and ruling
that “this case is neither an obvious case of reckless indifference nor has adequate
authority previously ruled that materially similar conduct was unconstitutional.”
(App. 90a). The district court also dismissed Plaintiff’s claims against the County.
Despite evidence of previous control-panel accessibility incidents, the district court
determined that the evidence did not show a pattern of tortious conduct or that the
failure to train resulted in a highly predictable constitutional violation. (App. 95a96a). Alternatively, the district court found that Petitioner’s claim against the County
also failed: “[b]ecause the right at issue has not been clearly established, Plaintiff
cannot show that DACDC was deliberately indifferent” in its failure to train the
detention officers. (App. 94a).
Petitioner appealed the district court’s ruling to the Tenth Circuit Court of
Appeals. Two members of the Tenth Circuit Court of Appeals affirmed the dismissal
of Plaintiffs’ Section 1983 claims but could not agree on the basis for affirmance. A
third panel member dissented.
In his opinion, Chief Judge Tymkovich held that (1) Petitioner failed to provide
evidence to establish a constitutional violation; (2) the law was not clearly established
or obvious; and, (3) the Monell claim was properly dismissed based on the failure of
the constitutional claim. (App. 4a, 12a, 16a, 22a). In determining that Petitioner’s

5
rights were not obvious, Chief Judge Tymkovich equated the “obvious” right with the
“clearly established” right. (App. 22a). Chief Judge Tymkovich construed the
“obvious” analysis as a “functional exception to the presumption against fair notice,”
and required that for a right to be obvious the Tenth Circuit’s precedents must
“render the legality of the conduct undebatable.” (App. 22a).
Judge Carson’s separate opinion recognized the serious failure to protect
Petitioner. (App. 23a). Nevertheless, Judge Carson concurred with the result of Chief
Judge Tymkovich’s opinion but offered different reasons. Judge Carson concluded the
law was not clearly established, despite finding the evidence could demonstrate a
constitutional violation. (App. 23a). Judge Carson then determined that the failureto-train claim against the County must also be dismissed, because he agreed with the
district court that claims against governmental entities, like those against
individuals, must be based on “clearly established” constitutional rights. (App. 25a27a).
In a third opinion, Judge Baldock dissented in part, concluding first that “after
violent threats have been made by a group of particularly violent detainees, any
reasonable official cognizant of his duty to protect would know that the failure to
secure the control panel while a would-be assailant is outside his cell is objectively
unreasonable.” (App. 28a). Judge Baldock additionally agreed that evidence was
sufficient for a reasonable jury to find that the detention officers violated A.L.’s
constitutional rights and that the district court’s conclusion that evidence did not
support a pattern of tortious conduct was “[n]onsense.” (App. 37a, 55a-56a). As for

6
the analysis that the failure-to-train claim was dependent on clearly established law,
Judge Baldock cautioned that requiring “clearly established” law in failure-to-train
cases that establish a pattern of tortious conduct would “effectively afford a form of
vicarious immunity to municipalities.” (App. 58a-59a).
REASONS FOR GRANTING THE WRIT
Summary of Reasons
The Tenth Circuit’s fragmented opinion merits this Court’s further review for
the following reasons:
First, the circuits are in disarray about how to determine whether the law is
“clearly established” for the purposes of qualified immunity, specifically in cases that
do not require split-second decision making. The fractured Tenth Circuit decision, as
well as the Fifth Circuit’s decision in Taylor v. Stevens, 946 F.3d 211 (5th Cir. 2019),
demonstrate the difficulty in differentiating between cases that require specific
factual similarity, where it is difficult for officers to determine how to apply relevant
legal doctrines, and cases in which general constitutional rules provide clear
direction. The First, Second, Sixth, and Seventh Circuits have, in cases that permit
time for a deliberative decision, determined the “clearly established” requirement to
be met by prior case law with some factual variation from the case before the court.
This solution, however is far from uniform, and the conflicting views among the panel
members in this case demonstrate the difficulty with determining whether the law
was sufficiently clearly established. Only this Court can bring order out of chaos by

7
providing the much-needed guidance and clarity necessary to achieve a more uniform
and justified qualified immunity jurisprudence.
Second, the Tenth Circuit decision is contrary to this Court’s holdings rejecting
qualified immunity and defining the standard for proving deliberate indifference in
governmental-entity liability cases. The two prongs of the qualified immunity
analysis, applicable to individuals, require a court to determine whether the
constitution was violated and whether the law establishing the violation was clearly
established. A requirement that the law must also be clearly established for Monell
claims contravenes this Court’s rejection of qualified immunity for governmental
entities and expands this Court’s definition of governmental deliberate indifference.
In so doing, the Tenth Circuit has fatally undermined the continued development of
constitutional law through governmental-entity claims—to which the “clearly
established” prong does not apply. See, e.g., Pearson v. Callahan, 555 U.S. 223, 24243 (2009). The Tenth Circuit decision and the decisions in other circuits contradict
this Court’s authority, confuse the constitutional obligations for governmental
entities, and shut the door to the development of constitutional law that the Pearson
Court purposefully left open.
Third, qualified immunity should not shield the officers in the present case.
The jailers were deliberately indifferent to a known risk of harm to Petitioner when
they failed to monitor the roaming violent inmate who used an unsecured control
panel to access, unlock, and open cell doors. They knew about the threats, knew the
control panel was unlocked and vulnerable, and knew the roaming inmate was

8
violent, but failed to reasonably respond to the threat and watched television instead.
The Tenth Circuit’s decision acknowledged the law clearly established that “credible
threats require reasonable response” (App. 20a), but failed to account for the factual
context of this case. Instead, the Tenth Circuit required precise factual similarity in
prior cases to find the law was clearly established. In the circumstances of the present
case, the law was clearly established because the constitutional violation was obvious
and existing precedent gave fair notice of the risk of the violation, given the time for
deliberation the jailers enjoyed.
I. This Court Should Resolve the Confusion Among the Circuits About
How to Identify Clearly Established Law
The Tenth Circuit’s three-way opinion highlights how the federal courts
struggle with the level of factual similarity required to demonstrate clearly
established law. The struggle arises because Section 1983 applies to many types of
factual circumstances. This Court should instruct the circuits that where there is no
necessity, exigency, or justification to rationalize a particular action, a different
qualified immunity analysis should apply. In those cases, the law is sufficiently
clearly established by broad constitutional standards.
Broad constitutional standards can create clearly established law in “obvious
cases” where “the unlawfulness of the officer’s conduct [will be] sufficiently clear even
though existing precedent does not address similar circumstances.” District of
Columbia v. Wesby, 138 S.Ct. 577, 589-90 (2018); see also White v. Pauly, 137 S.Ct.
548, 552 (2017). This Court has explained that

9
general statements of the law are not inherently incapable of giving fair
and clear warning, and in other instances a general constitutional rule
already identified in the decisional law may apply with obvious clarity
to the specific conduct in question, even though the very action in
question has not previously been held unlawful.
Hope v. Pelzer, 536 U.S. 730, 741 (2002) (internal quotation marks, alterations, and
citations omitted). Generally, however, “‘existing precedent must have placed the
statutory or constitutional question beyond debate.’” Mullenix v. Luna, 136 S.Ct. 305,
308 (2015) (quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)). As this Court has
explained, parties must show specific factual similarities between precedent and the
case at issue for the law to be clearly established, especially where “‘it is sometimes
difficult for an officer to determine how the relevant legal doctrine . . . will apply to
the factual situation the officer confronts.” Id. (alteration omitted) (quoting Saucier
v. Katz, 533 U.S. 194, 205 (2001)); see also Kisela v. Hughes, 138 S.Ct. 1148, 1153
(2018) (refusing to apply general constitutional principles to clearly establish the law
when an officer was confronted by a woman who refused to acknowledge commands
to drop a knife); San Francisco v. Sheehan, 135 S.Ct. 1765, 1776 (2015) (refusing to
apply general constitutional principles when the officers were faced with a
dangerous, obviously unstable person making threats).
In the present case, the Tenth Circuit held that prior precedent was not
sufficiently similar to the current circumstances, even though two Tenth Circuit cases
and a number of other cases from other circuits required jailers to take reasonable
steps to protect those in custody from credible threats. (App. 16a-21a). The Tenth
Circuit opinion then determined that the constitutional violation was not “obvious”

10
because the facts did not trigger what the Court termed, the narrow “functional
exception against fair notice.” (App. 22a). For this is “exception” to apply, the Court
stated it would have to “effectively conclude our precedents render the legality of the
conduct undebatable.” (App. 22a (quoting Lowe v. Raemisch, 864 F.3d 1205, 1201-11
(10th Cir. 2017)). The Tenth Circuit did not, as other courts have done, consider
whether the officers had time to determine how the relevant legal doctrine would
apply in the circumstances Respondents faced.
Four circuits considering qualified immunity in recent years have held the law
to be clearly established, even though the case involved a unique set of facts, because
the government actor had the opportunity to deliberate before acting or continuing to
act. See Jones v. Treubig, 963 F.3d 214, 235-36 (2nd Cir. 2020) (citing Graham v.
Connor to clearly establish the obligation to re-assess in the moment whether
additional force is necessary); Harris v. Klare, 902 F.3d 630, 643 (6th Cir. 2018)
(holding that officers were not entitled to qualified immunity even though the facts
of another case “did not precisely match,” because the situation was “neither tense,
nor uncertain, nor rapidly evolving”); Becker v. Elfreich, 821 F.3d 920, 929, n.2 (7th
Cir. 2016) (noting that the case did not “involve a split-second delay” to make the
relevant decision and declining to require a case directly on point); Stamps v. Town
of Framingham, 813 F.3d 27, 40-42 (1st Cir. 2016) (determining that despite “unique
sets of facts” of cases in that circuit, the law was clearly established for an officer who
was “not forced to act based on a split-second judgment about the appropriate level
of force to employ”). These cases comport with this Court’s recent and long-standing

11
requirements for overcoming qualified immunity, but these cases also identify
particular types of facts that justify the need for less factual identity with prior cases.
This Court recently reversed the Fifth Circuit in Taylor v. Rojas. The Fifth
Circuit shielded the jailers with qualified immunity, even though the constitutional
violation was “obvious,” because prior precedent did notify the jailers that leaving an
inmate in a feces-covered cell for only six days violated the constitution. Taylor, 945
F.3d at 221-22. This Court reversed, in part because the jailers provided no evidence
that the prisoner’s conditions of confinement “were compelled by necessity or
exigency” or that they could not have mitigated those conditions. Taylor v. Rojas, 208
L. Ed.2d 164, 165 (2020). In the past, this Court has explained that the “clearly
established” component of qualified immunity is necessary because officers face
immediate threats against a “hazy legal backdrop.” Mullenix, 136 S.Ct. at 309, 312;
see Kisela, 138 S.Ct. at 1152-53. Similarly, in Sacramento v. Lewis, the Court
considered the intent required for substantive due process violations in the context of
excessive force outside a prison setting, as opposed to the intent required in a prison
setting. 523 U.S. 833, 836, 851-53 (1998). In that context, this Court explained
Thus, attention to the markedly different circumstances of normal
pretrial custody and high-speed law enforcement chases shows why the
deliberate indifference that shocks in the one case is less egregious in
the other . . . . As the very term ‘deliberate indifference’ implies, the
standard is sensibly employed only when actual deliberation is practical,
and in the custodial situation of a prison, forethought about an inmate’s
welfare is not only feasible but obligatory under a regime that
incapacitates a prisoner to exercise ordinary responsibility for his own
welfare.

12
Id. at 851 (citation omitted). When deliberation is practical and forethought about a
citizen’s welfare is feasible—and obligatory—less factual specificity among cases
should be sufficient to clearly establish the law and overcome qualified immunity.
The opportunity for deliberation allows the government actor to consider his
training, consider general constitutional principles, consider personal experience and
make a deliberate decision to abide by the law as he knows it or go his own way. In
such circumstances, qualified immunity is not justified by the lack of opportunity to
consider an uncertain legal backdrop. See Sims v. Labowitz, 885 F.3d 254, 264 (4th
Cir. 2018) (noting the alleged conduct “plainly did not qualify as the type of ‘bad
guesses in gray areas’ that qualified immunity is designed to protect” (quoting Braun
v. Maynard, 652 F.3d 557, 560 (4th Cir. 2011)); Irish v. Fowler, No. 20-1208, at *23,
2020 U.S. App. LEXIS 35054 (1st Cir. Nov. 5, 2020) (noting that, in failure-to-protect
case that progressed over the course of about 18 hours, “[t]he test to determine
whether a right is clearly established asks whether the precedent is ‘clear enough
that every reasonable official would interpret it to establish the particular rule the
plaintiff seeks to apply’ and whether ‘[t]he rule’s contours [were] so well defined that
it is clear to a reasonable officer that his conduct was unlawful in the situation he
confronted.’” (quoting Wesby, 138 S.Ct. at 590 (alterations in original)).
No necessity or exigency justified Respondents’ failure to lock and monitor the
electronic control panel that operates the cell doors in the jail. In the present case, as
Judge Baldock noted, the law was clear enough for the detention officers to know “to
protect non-violent inmates from violent inmates by keeping cell doors locked.” (App.

13
52a, n.5 (emphasis in original) (quoting Walton v. Dawson, 752 F.3d 1109, 1121 (8th
Cir. 2014)); see also Browder v. City of Albuquerque, 787 F.3d 1076, 1082 (10th Cir.
2015) (“After all, some things are so obviously unlawful that they don’t require
detailed explanation and sometimes the most obviously unlawful things happen so
rarely that a case on point is itself an unusual thing.”).
The qualified immunity doctrine is an issue of national importance and “courts
of appeals are divided—intractably—over precisely what degree of factual similarity
must exist.” See Zadeh v. Robinson, 928 F.3d 457, 479 (5th Cir. 2019) (Willet, J.,
concurring in part and dissenting in). Recently, this Court reversed the Fifth Circuit
Court of Appeals, which had required nearly identical precedent to deny qualified
immunity in a case that the court acknowledged involved an “obvious” constitutional
violation. Taylor, 208 L.Ed. 2d at 165. Four different analyses about qualified
immunity have arisen from the instant case—three from within the Tenth Circuit
panel itself.
The circuits vary widely on the level of factual precedent required to “clearly
establish” the law. Some circuits require nearly identical facts. McCoy v. Alamu, 950
F.3d 226, 233-34 (5th Cir. 2020) (granting qualified immunity because though the
single use of pepper spray on an inmate for no reason violated the constitution, the
question was not beyond debate); Kelsey v. Ernst, 933 F.3d 975, 978-81 (8th Cir. 2019)
(distinguishing precedent because the Kelsey subject ignored a single command and
walked away from the officer and prior case involved two ignored commands or the
subject did not walk away); Phillips v. Cmty. Ins. Corp., 678 F.3d 513, 536-37 (7th

14
Cir. 2012) (Tinder, J., dissenting) (finding that because the weapon used was
“relatively new” the law did not clearly establish the officers’ actions as unlawful).
Each of these cases resulted in a panel split on the “clearly established” question.
McCoy , 950 F.3d at 235 (Costa, J., dissenting) (noting that the majority distinguished
cases finding clearly established violations for using a baton or a taser on an inmate
for no reason); Kelsey v. Ernst, 933 F.3d at 982-88 (Smith, J., dissenting) (construing
existing case law to clearly establish that officers could not use a full-body takedown
on a small, cooperative, nonviolent misdemeanant); Phillips, 678 F.3d at 528-29
(refusing to give officers “a free pass” every time the police use a new weapon).
Meanwhile, other circuits have rejected the need for clearly established law to be
based on identical factual circumstances. See Kane v. Barger, 902 F.3d 185, 195-96
(3rd Cir. 2018); Brooks v. Powell, 800 F.3d 1295, 1306-07 (11th Cir. 2015) (finding a
constitutional violation clearly established independent of the case law or a case
“involv[ing] the precise circumstances at issue here”).
The district courts have noted their increasing difficulty with the doctrine.
Manzanares v. Roosevelt Cty. Adult Det. Ctr., 331 F.Supp.3d 1260, 1293, n.10 (D.N.M.
2018) (“Thus, when the Supreme Court grounds its clearly-established jurisprudence
in the language of what a reasonable officer or a ‘reasonable official’ would know, yet
still requires a highly factually analogous case, it has either lost sight of reasonable
officer’s experience or it is using that language to mask an intent to create ‘an
absolute shield for law enforcement officers[.]’” (quoting Kisela, 138 S. Ct. at
1162 (Sotomayor, J. dissenting) (internal citation omitted); Jamison v. McClendon,

15
No. 3:16-CV-595, 2020 U.S. Dist. LEXIS 139327 (S.D. Miss. 2020) (“Federal judges
now spend an inordinate amount of time trying to discern whether the law was clearly
established ‘beyond debate’ at the time an officer broke it. But it is a fool’s errand to
ask people who love to debate whether something is debatable.”); see also Karen M.
Blum, Qualified Immunity: Time to Change the Message, 93 Notre Dame L. Rev. 1887,
1897-1905 (2018) (detailing the courts’ patchy methods for determining whether the
law is clearly established).
The case before the Court is a microcosm of the “clearly established” problem.
One judge believed that any reasonable officer could apply general constitutional
principles to know the failures in this case were unlawful. Two other judges remained
unconvinced that the law clearly established that Respondents unconstitutionally
failed to protect Petitioner. Only this Court can resolve the disarray and confusion in
the circuits about how to resolve the question of “clearly established” law in qualified
immunity cases.
II.

The Monell Analysis Within the Tenth Circuit’s Split Opinion
Conflicts with this Court’s Holdings in Owen v. Independence, City
of Canton v. Harris, Bd. of County Comm’rs v. Brown, and Pearson
v. Callahan
This Court has plainly held that governmental entities are not entitled to the

protection of qualified immunity. Owen v. Independence, 445 U.S. 622, 651, 655-56
(1980). It has further held that in a failure to train case, the governmental entity is
on notice of a potential constitutional violation when there is a pattern of tortious
conduct or the violation is highly predictable. Bd. of County Comm’rs v. Brown, 520
U.S. 397, 407-10 (1997). Judge Carson nevertheless suggested requiring a showing

16
that the government employee violated “clearly established law” would ensure that
the governmental entity’s “indifference” was actually “deliberate,” otherwise
governmental entities would be at risk of being liable for respondeat superior, solely
for their employees’ actions. (App. 26a-27a).
This reasoning fails for two reasons. First, this Court has rejected the qualified
immunity shield for governmental entities and placed the burden of foreseeability on
the governmental entities. Second, this Court carefully installed safeguards to avoid
governmental liability solely for the actions of employees—or respondeat superior
liability—and an additional “clearly established” standard is not necessary to ensure
that a governmental entity’s indifference was “deliberate,” which the facts of this case
demonstrate. Injecting the requirement of “clearly established” into the deliberate
indifference analysis into Monell claims will stagnate the development of
constitutional law, in direct conflict with this Court’s reliance on that development.
A. Governmental Entities Bear the Risk for Their Own Constitutional
Violations
This Court has carefully ensured that governmental entities are not under the
doctrine of respondeat superior. In Monell v. Dep’t of Social Servs. of N.Y., 436 U.S.
658 (1978), this Court held that Congress intended for governmental entities to be
liable under Section 1983 for unconstitutional policies or customs. Id. at 690-91.
Governmental entities, however, could not be held liable only because an employee
violated the constitution. For governmental entities, the “constitutional tort” must be
caused by an “action pursuant to official municipal policy of some nature.” Id. at 691.
In the instant case, the evidence also showed that DACDC had a custom of not

17
securing the control panel, which is a straightforward failure to act by the jail itself.
Thus, the Tenth Circuit improperly dismissed the Monell claim against the County.
Two years after Monell, this Court rejected the proposition that a
governmental entity sued under Section 1983 was entitled to qualified immunity.
Owen, 445 U.S. at 651, 655-56. Owen involved liability for a direct governmental
decision—the plaintiff claimed the governmental entity discharged him without
notice and a hearing and in violation of due process protections. Id. at 630. The Owen
Court explained that:
A damages remedy against the offending party is a vital component of
any scheme for vindicating cherished constitutional guarantees, and the
importance of assuring its efficacy is only accentuated when the
wrongdoer is the institution that has been established to protect the very
rights it has transgressed. Yet owing to the qualified immunity enjoyed
by most government officials, many victims of municipal malfeasance
would be left remediless if the city were also allowed to assert a goodfaith defense. Unless countervailing considerations counsel otherwise,
the injustice of such a result should not be tolerated.
Id. at 651 (citation omitted). The Court determined no countervailing policies
outweighed the need for a remedy for constitutional violations, in part because
consideration of the municipality’s liability for constitutional violations
is quite properly the concern of its elected or appointed officials. Indeed,
a decisionmaker would be derelict in his duties if, at some point, he did
not consider whether his decision comports with constitutional
mandates and did not weigh the risk that a violation might result in an
award of damages from the public treasury.
Id. at 656 (emphasis in original). The financial loss resulting from constitutional
violations is more fairly allocated to the “inevitable costs of government,” even “where
some constitutional development could not have been foreseen by municipal officials.”
Id. at 655. Contrary to Owen’s underpinnings, the Tenth Circuit in the present case

18
required the law to be “clearly established” to prove the Monell claim. And just as the
Owen Court warned, in the present, the County failed to fulfill its duty to consider
whether the policies and training relating to the control panel comported with
constitutional mandates, and the Petitioner was left remediless.
B. The Deliberate Indifference Standard for Governmental Entities
Prevents Respondeat Superior Liability
In addition to acknowledging Monell claims addressing unconstitutional
policies and customs, in City of Canton, this Court determined that a governmental
entity could also be liable under Section 1983 for failure to train its employees. City
of Canton, Ohio v. Harris, 489 U.S. 378, 380 (1989). This Court continued to reject
respondeat superior liability and required a showing that “the employee has not been
adequately trained and the constitutional wrong has been caused by that failure to
train.” Id. at 387. The Court explained that
it may happen that in light of the duties assigned to specific officers or
employees the need for more or different training is so obvious, and the
inadequacy so likely to result in the violation of constitutional rights,
that the policymaker of the city can reasonably be said to have been
deliberately indifferent to the need.
Id. at 390. The requirement in failure-to-train cases for deliberate indifference and
causation ensured that the governmental entity was only liable for its own actions.
With this reasoning, this Court allowed failure-to-train claims while still rejecting
respondeat liability.
This Court gave further instruction in Bd. of County Comm’rs v. Brown.
Recognizing the difficulty in proving that the governmental entity’s actions caused
the constitutional violation in failure-to-train cases, the Brown Court provided

19
examples for demonstrating the required governmental deliberate indifference. First,
the “continued adherence to an approach that [the governmental entity] know[s] or
should know has failed to prevent tortious conduct by employees may establish the
conscious

disregard

for

the

consequences

of

their

action—the

‘deliberate

indifference’—necessary to trigger municipal liability.” Brown, 520 U.S. at 407.
Second,
the existence of a pattern of tortious conduct by inadequately trained
employees may tend to show that the lack of proper training, rather than
a one-time negligent administration of the program or factors peculiar
to the officer involved in a particular incident, is the ‘moving force’
behind the plaintiff’s injury.
Id. at 407-08. A third category of cases arise when the failure-to-train claim stems
from single-incident violations. In a narrow range of those cases, “a violation of
federal rights may be a highly predictable consequence of a failure to equip law
enforcement with specific tools to handle recurring situations.” Id. at 409 (discussing
City of Canton v. Harris, 489 U.S. 378 (1989)). In each of these three types of cases,
the governmental entity had notice that a constitutional violation could arise from its
activities, either because the entity knew or should have known, because there was a
pattern of tortious conduct, or because the violation was a highly predictable
consequence.
After City of Canton and Brown, policy-and-practice Monell claims and failureto-train Monell claims are on equal footing. Both types of claims—for unconstitutional
policies and practices and for failure to train—hold governmental entities
accountable for their own conduct and not the conduct of employees. The Owen

20
Court’s rejection of qualified immunity for Monell claims therefore applies equally to
unconstitutional policies and the failure-to-train cases, because both types of Monell
claims hold government entities liable for their own conduct.
Nevertheless, the Second, Sixth, Eighth, and now, Tenth, Circuits have held
that for a governmental entity to be liable for failure to train employees and avoid
respondeat superior liability, the governmental entity must be deliberately
indifferent to “clearly established” rights, as set forth in this Court’s qualified
immunity precedent. Arrington-Bey v. City of Bedford Heights, 858 F.3d 988, 995 (6th
Cir. 2017); Szabla v. City of Brooklyn Park, 486 F.3d 385, 394 (8th Cir. 2007); Townes
v. City of New York, 176 F.3d 138, 143 (2nd Cir. 1999. Because failure-to-train cases
arise from deliberate indifference, the Sixth Circuit, following the Eighth Circuit, has
refused to apply this Court’s declaration in Owen that governmental entities are not
shielded by qualified immunity. Arrington-Bey, 858 F.3d at 995. According to those
circuits, requiring the law to be clearly established “does not give qualified immunity
to governmental entities, it simply follows City of Canton’s and Brown’s demand that
deliberate indifference be deliberate.” See id. at 995; Szabla, 486 F.3d at 394.
This reasoning permeates the Tenth Circuit’s decision, even though the Brown
Court explained that a pattern of tortious conduct or governmental decisionmakers’
“continued adherence to an approach that they know or should know has failed to
prevent tortious conduct by employees may establish the conscious disregard for the
consequences of their action—the ‘deliberate indifference’—necessary to trigger
municipal liability.” 520 U.S. at 407 (citing City of Canton, 489 U.S. at 390, n.10).

21
Deliberate indifference is “deliberate” if the actor consciously disregards the
consequences of actions. The Owen Court considered, and rejected, the premise that
governmental entities are entitled specific notice of potential constitutional
violations:
[E]ven where some constitutional development could not be foreseen by
municipal officials, it is fairer to allocate any resulting financial loss to
the inevitable costs of government borne by all taxpayers, than to allow
its impact to be felt solely by those whose rights, albeit newly recognized,
have been violated.
Owen, 445 U.S. at 655. Any additional notice requirement undermines this Court’s
analysis in Brown, as well as the well-established purpose for governmental liability
to “create an incentive for officials who may harbor doubts about the lawfulness of
their intended actions to err on the side of protecting citizens’ constitutional rights.”
Owen, 445 U.S. at 651-52.
The Sixth Circuit in Arrington-Bey equated “clear constitutional duties” with
“clearly established” law. Arrington-Bey, 858 F.2d at 995; see also Hagans v. Franklin
County Sheriff’s Office, 695 F.3d 505 (6th Cir. 2012); Szabla v. City of Brooklyn Park,
486 F.3d 385 (8th Cir. 2007); Townes v. City of New York, 176 F.3d 138 (2nd Cir.
1999). This analysis, however, pre-dated this Court’s focus, beginning with Mullenix
v. Luna, 136 S.Ct. 305 (2015), on specific factual context in order to recognize “clearly
established” law that overcomes the qualified immunity bar. See White, 137 S.Ct. at
551-52 (noting the increase in qualified immunity reversals by this Court). For
qualified immunity, the foreseeability of the constitutional violation must be “clearly
established” for a reasonable officer to know what to do. In the context of

22
governmental liability, the burden of foresight, or the lack thereof, is placed on the
government, see Owen, 455 U.S. at 655, and the protections put in place by the Brown
Court ensure that the governmental entity will only be liable for its own actions or
failures to act. See Brown, 520 U.S. at 406-07.
In the present case, as Judge Baldock determined, the evidence demonstrated
a pattern of tortious conduct that supported a failure-to-train claim. (App. 55a-56a).
DACDC knew that in the previous 18 months, juvenile inmates had attempted to
access the control panel to operate doors four times. Once, the inmate was able to
open a cell door, but no attack occurred, and another time, the inmate was stopped
before he could reach the unlocked panel. (App. 35a-36a). On two occasions, however,
the inmates successfully accessed the panel and attacked other inmates. (App. 35a36a).
Judge Tymkovich discounted two of the attempts, because only two resulted in
attacks sufficiently similar to the present circumstances. (App. 13a). Judge Baldock,
however, determined that “[t]hese four occasions considered in the aggregate were
sufficient to place DACDC on notice that an unsecured control panel in the juvenile
pod may result in problems of constitutional proportions for the DACDC, making the
questions of causation and deliberate indifference in this case for the jury.” (App.
56a). Judge Carson did not consider whether the prior incidents were a sufficient
pattern for the purposes of Brown, because he determined that the law must be
“clearly established” in order to provide the jail with sufficient notice and to avoid
respondeat superior liability. (App. 25a-27a).

23
This Court has carefully developed Monell law to avoid the very problem that
the Tenth Circuit’s decision states is solved by inserting a “clearly established”
requirement into the deliberate indifference analysis. A pattern of tortious conduct
or demonstration that a constitutional violation was highly predictable avoids
respondeat superior liability and also avoids shielding governmental entities with
qualified immunity—a protection this Court has long rejected.
C. Requiring Clearly Established Law for Governmental-Entity Liability
Undermines the Development of Constitutional Law
This Court has emphasized the importance of developing constitutional law
through Section 1983 claims against governmental entities. Pearson, 555 U.S. at 24243. If the circuits are allowed to continue to avoid analyzing whether governmental
entities have violated the Constitution, the law will stagnate. Unless governmental
entities are exposed to novel claims for civil rights violations, this Court’s vision for
the development of constitutional law will be thwarted. In Pearson, the Court
determined that district courts could resolve the two prongs of qualified immunity in
either order. 555 U.S. at 236. In order to forestall arguments that determining the
“clearly established” prong first would stunt the growth of our constitutional common
law, this Court explained:
[T]he development of constitutional law is by no means entirely
dependent on cases in which the defendant may seek qualified
immunity. Most of the constitutional issues that are presented in §
1983 damages actions and Bivens cases also arise in cases in which that
defense is not available, such as criminal cases and § 1983 cases against
a municipality[.]

24
Pearson, 555 U.S. at 242-43 (emphasis added); see Camreta v. Greene, 563 U.S. 692,
728 (2011); see also Joanna C. Schwartz, The Case Against Qualified Immunity, 93
Notre Dame L. Rev. 1797, 1814-20 (2018) (explaining that the “clearly established”
prong of qualified immunity has the effect of rendering constitutional protections
“hollow” (quoting Mullenix, 136 S.Ct. at 316 (Sotomayor, J., dissenting))). The Tenth
Circuit’s opinion, and the decisions of other Circuits, negate Pearson’s assurances.
The Tenth Circuit split opinion, and the decisions of other circuits, will breed
a governmental-entity liability analysis under Section 1983 that infringes on and
undermines this Court’s precedent. This Court should grant certiorari to address the
divergence of these courts from well-established precedent on an issue of national
importance.
III.

Petitioner Satisfied the Burden to Show His Constitutional Rights
Were Clearly Established Because Respondents Had Ample Time to
Evaluate the Circumstances and Make Reasoned Decisions Based
on More General Constitutional Principles

It is a well-established general constitutional principle that prison officials
must act when they have knowledge of a substantial risk of serious harm. Farmer v.
Brennan, 511 U.S. 825, 842 (1994). When they have that knowledge, “the
unlawfulness of the officer’s conduct is sufficiently clear even though existing
precedent does not address similar circumstances.” District of Columbia v. Wesby, 138
S.Ct. at 590. The DACDC jailers knew of the risk posed by both the unlocked panel
and the particular inmates who specifically threatened Petitioner. Nevertheless,
Respondents did not secure the panel or the violent and dangerous inmate who was
out of his cell.

25
No necessity or exigency justified these failures to act to address the known
and substantial risk to Petitioner’s safety. As Judge Baldock explained, the right
established in Farmer “is not extremely abstract or imprecise under the facts alleged
here, but rather is relatively straightforward and not difficult to apply.” (App. 52a
(quoting A.N. ex rel. Ponder v. Syling, 928 F.3d 1191, 1198-99 (10th Cir. 2019). The
Tenth Circuit should not have required a fact-to-fact comparison of existing
precedent. The violation was obvious, and Farmer provided the clearly established
law on the that morning Petitioner was beaten in his cell.
The Tenth Circuit’s own established on-point precedent and the weight of other
circuits also clearly established the law. The Tenth Circuit opinion observed that
circuit law clearly established that in jails, “credible threats merit reasonable
response,” citing Berry v. Muskogee, 900 F.2d 1489 (10th Cir. 1990) and Howard v.
Waite, 534 F.3d 1227 (10th Cir. 2008). (App. 20a). The Tenth Circuit nevertheless
distinguished those cases factually, because Respondents separated Petitioner from
the three threatening inmates and three guards were present while the inmate
accessed the panel and unlocked the doors. (App. 18a-20a). Respondents, however,
achieved separation between the violent inmates and Petitioner, by locking the cell
doors, and the three guards watched television rather than take any action to make
sure those doors stayed locked. The present case involved a credible threat and an
unreasonable response, which the Tenth Circuit acknowledged is a clearly
established constitutional violation.

26
Four other circuits have established the specific obligation to protect
vulnerable inmates from violent inmates by keeping cell doors locked. Junior v.
Anderson, 724 F.3d 812 (7th Cir. 2013) (holding an inference of deliberate indifference
could arise when guard knew the doors were unlocked, left her post, and allowed
inmates out of their cells to congregate in an unmonitored area); Marsh v. Butler
Cnty., Ala., 268 F.3d 1014, 1228 (11th Cir. 2001) (en banc) (permitting a claim against
a jail for failure to maintain the jail, because “that the locks on the doors did not work
prevented the isolation of prisoners from each other and gave attackers ready access
to [the p]laintiffs”) (abrogated on other grounds by Bell Atl. Corp. v. Twombly, 550
U.S. 544, 561-63, (2007); Newman v. Holmes, 122 F.3d 650, 653 (8th Cir. 1997)
(affirming the jury’s verdict that an officer who opened a cell door without proper
precautions, releasing a known-dangerous inmate who attacked other inmates
recklessly disregarded a known, excessive risk to inmate safety); Street v. Corrs. Corp.
of Am., 102 F.3d 810, 812-13 (6th Cir. 1996) (permitting constitutional claims against
an officer who knew of a specific threat to an inmate but nevertheless opened all of
the doors in a unit, resulting in an assault on the threatened inmate); see also Walton,
752 F.3d at 1114-15, 1123 (allowing a vulnerable inmate to assert a claim against an
officer who left the cell doors unlocked, resulting in a known sex offender attacking
him); Erickson v. Holloway, 77 F.3d 1078, 1079-81 (8th Cir. 1996) (permitting a claim
against an officer who knew of a threat, left the control panel accessible to inmates,
and did not investigate a violent inmate’s movement toward the unlocked area the
officer thought was locked).

27
These cases demonstrate a clear weight of authority from other circuits that
jailers have the obligation to protect vulnerable inmates by keeping cell doors locked.
See Irish, No. 20-1208, at *23, 2020 U.S. App. LEXIS 35054 (explaining that a robust
consensus from other circuits does not require agreement of every circuit and that
“sister circuit law is sufficient to clearly establish a proposition of law when it would
provide notice to every reasonable officer that his conduct was unlawful”). Given the
opportunity for Respondents to apply general constitutional principles to the
circumstances, the existing precedent would alert a reasonable jailer that the failure
to prevent inmates from accessing cell doors would violate Petitioner’s clearly
established rights. This Court should grant certiorari to resolve whether the Tenth
Circuit wrongly disregarded the factual context of this case and whether, in the
absence of exigency, necessity, or justification, materially factually similar precedent
was necessary to show that the jailers’ acts and failures to act were obviously or
clearly unconstitutional.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be
granted.

28
Respectfully submitted,
Margaret Strickland
Counsel of Record
MCGRAW & STRICKLAND
165 W. Lucero Ave.
Las Cruces, NM 88005
(575) 523-4321
margaret@lawfirmnm.com
Katherine Wray
WRAY LAW PC
102 Granite Ave. NW
Albuquerque, NM 87102
(505) 842-8492
wray@kwraylaw.com
Counsel for Petitioner
December 4, 2020

